HHS/OIG-Audit--"Review of Medicare Overpayments to Managed Care Organizations Due to Overstated Capitation Rates, (A-05-99-00025)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Overpayments to Managed Care Organizations Due to
Overstated Capitation Rates," (A-05-99-00025)
December 16, 1999
Complete Text of Report is available in PDF format
(1.2 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Balanced Budget Act of 1997 (BBA) established the Medicare+Choice program
which directs the Health Care Financing Administration (HCFA) to use 1997 standardized
county rates as the basis for all future capitation payments to managed care
organizations (MCOs). This final report points out that the 1997 standardized
county rates were based on actuarial estimates and, when compared with actual
costs incurred, were overstated by 4.2 percent. Applying this overstatement
to Congressional Budget Office projections of future Medicare payments to MCOs,
we estimate that the inflated payment rates will result in Medicare overpayments
to MCOs totaling $11.3 billion over the next five years and $34.3 billion over
the next ten years. We recommended that HCFA seek legislation to correct the
overstated base year rates, or at a minimum, use this information to suppress
or eliminate any future increases in managed care capitation rates until this
wide discrepancy is corrected. The HCFA did not concur, stating that the President's
Medicare reform package includes a proposal to change the methodology used to
set payment rates for MCOs . Since the new methodology will not use the overstated
base year rates enacted under the BBA, HCFA officials believe legislation to
correct the base year rates is unnecessary. However, because the Medicare reform
legislation discussed by HCFA has not passed the Congress, we continue to recommend
that HCFA seek legislation to correct the overstated payment rates.